February 22, 2007

WALTER F. O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Management of the Flats Recognition Improvement
         Program (Report Number DA-AR-07-002(R))

This report presents the results of our self-initiated audit of management of the Flats
Recognition Improvement Program (FRIP) (Project Number 06XG002DA000). Our
objectives were to determine whether the FRIP program met U.S. Postal Service
requirements in a timely and effective manner and whether contract activities supported
program requirements and were conducted according to Postal Service policies and
procedures. On January 24, 2006, we reported on our review of contract activities in an
interim audit report. (See Prior Audit Coverage.)

                                                 Background

The Postal Service’s Board of Governors approved an initial FRIP Phase 1 Decision
Analysis Report (DAR) authorizing $111 million to enhance address recognition
technology used in flat mail automation equipment. In May 2003, a contract for $89
million was awarded to Siemens Dematic with incentives to improve optical character
reader (OCR) acceptance rates and reduce OCR error rates on all automated flat
sorting machine (AFSM) 100 and upgraded flat sorting machine (UFSM) 1000
equipment .1 Management began FRIP Phase 1 deployment in November 2004 and
completed it in December 2005.

In June 2005, the Board of Governors approved a second DAR, FRIP Phase 2,
authorizing $113 million for continued enhancement of address recognition technology.
Subsequently, the Postal Service awarded Siemens Dematic a second incentive
contract of $60.7 million under the Phase 2 DAR to further improve OCR performance
on both flats sorting equipment. Deployment of the first release for this phase is
planned for November 2006.



1
  The AFSM 100 is the latest technology for processing the majority of standard flat mail. The UFSM 1000 is older
technology that processes nonstandard flat mail and newspapers.
Management of the Flats Recognition                                                             DA-AR-07-002(R)
 Improvement Program


The primary benefit expected from a FRIP upgrade on the AFSM 100 is higher OCR
acceptance rates to reduce keying workhours at remote encoding centers (RECs). The
plant sends non-readable mailpiece images from flat mail operations electronically to
REC sites for address keying. Once an individual completes address keying, the
corrected image is sent back to the AFSM 100 at the plant to complete mail processing.

The main benefit expected from the FRIP upgrade to the UFSM 1000 is higher OCR
acceptance rates, which should reduce manual keying workhours and manual flat
sorting. Figure 1 highlights the processing areas expected to be impacted by FRIP.

                                             Figure 1. UFSM 1000

                                                                   Sort bins – Mail handlers manually sort
                                                                   rejected mail or mail not initially sorted.



      FRIP improvements allow more mail to be
      processed with fewer errors at the automated
      feeder/OCR workstation by one clerk.




                                                                                 Manual keying workstations
                                                                                 for up to three clerks.




                                                      2
Management of the Flats Recognition                                                               DA-AR-07-002(R)
 Improvement Program



                                Objective, Scope, and Methodology

The objective of this audit was to determine if the FRIP program met requirements in a
timely and effective manner.

To accomplish our objective, we reviewed test reports, invoices, contract
correspondence, New Equipment Reporting System (NERS) utilization reports for the
UFSM 1000 and Web Enterprise Information System data concerning manual
workhours and flat mail volume before and after the FRIP deployment in November
2004. We also interviewed the Postal Service Headquarters processing operations
manager, engineering automation equipment manager, FRIP program manager, FRIP
purchasing specialist, and nine area coordinators.

We reviewed FRIP performance and system benefits requirements based on the results
of lab environment testing and a before-and-after analysis of AFSM 100 and UFSM
1000 productivity. We reviewed REC site workhours, manual processing workhours,
UFSM productivity rates, and flat mail volume. To perform this assessment, we used
data from the Postal Service Management Operating Data System (MODS) for fiscal
years (FY) 2004 and 2005 and October through February of FY 2006.

We conducted this audit from February 2006 through January 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We reviewed policies
and procedures for internal controls and discussed our observations and conclusions
with management officials and included their comments where appropriate. We relied
on computer-processed data maintained by Postal Service operations and discussed
data sources with Postal Service management. We did not test the validity of controls
of systems. However, we performed a preliminary assessment and concluded the data
used was sufficiently reliable to answer the audit objectives.

                                           Prior Audit Coverage

Our audit report titled Flat Recognition Improvement Program (Report Number DA-AR-
06-002, dated January 25, 2006) concluded that contract activities supported program
requirements and were generally conducted in accordance with Postal Service policies
and procedures.2 For example, the noncompetitive justification, best value

2
  To determine whether contract activities supported program requirements and were conducted according to Postal
Service policies and procedures, we reviewed the Phase 1 DAR, the initial FRIP contract and associated
modifications, price negotiation memorandums, and criteria in the Postal Service’s Purchasing Manual, Issue 2, dated
January 31, 2002. In addition, we reviewed test reports, incentive-earned computations, invoices, and contract
correspondence. We also interviewed the FRIP program manager, the contracting officer, and other key program
and supply management personnel. Further, we performed an analysis of Postal Service contract payments to
determine whether payment amounts and dates met contract requirements. To perform the analysis, we used
computer-processed data from the Accounts Payable Accounting and Reporting System (APARS). For the period
reviewed, we compared invoice numbers, dates, and amounts with APARS payment data.



                                                         3
Management of the Flats Recognition                                         DA-AR-07-002(R)
 Improvement Program


determination, and price negotiation memorandum were prepared and properly
approved. We also noted the Postal Service did not pay any invoices prior to receiving
goods and services and certifying the invoices for payment. However, the Postal
Service received and held several invoices that should have been rejected as improper
and authorized deviations from the original contract terms and conditions for billing and
payment. Therefore, we made recommendations to improve FRIP incentive payment
procedures. The Postal Service agreed with our recommendations and has actions
underway that should correct the issues identified.

Our review of contract activities was limited to the Phase 1 contract awarded to
Siemens on May 15, 2003, and included payments through May 2005 and contract
actions up to and including Modification 3, signed September 28, 2005 and effective as
of August 12, 2005.

                                        Results

The FRIP program exceeded the December 2004 deployment completion timeframe
required in the Phase 1 DAR and generally met performance requirements in the
laboratory environment. While FRIP upgrades to the AFSM 100 operations coincided
with REC workhour reductions as expected, anticipated reductions in manual sorting
and keying workhours were not evident from upgrades to the UFSM 1000. This was
attributed to operational decisions to migrate flat mail processing to the AFSM 100
operation. Thus, we concluded that the FRIP program contributed high value to AFSM
100 operations which handles over 80 percent of flat volumes but did not clearly
demonstrate value to UFSM 1000 operations. As such, we will report $21,367,952 of
questioned costs associated with upgrading UFSM 1000 equipment in our Semiannual
Report to Congress.

FRIP Program Exceeded Timeframes

The FRIP program did not meet Postal Service requirements in a timely manner, as
originally outlined in the Phase 1 DAR. Postal Service management reported, in the
Investment Highlights Report to the Board of Governors, the program was behind the
DAR schedule because the contractor was unable to meet the statement of work
requirements for recognition improvement software. Software must meet or exceed
contractual performance requirements before the Postal Service accepts and deploys
FRIP software releases from the contractor. Under the incentive contract terms,
payments depended on the contractor demonstrating improvements in OCR recognition
rates and reducing error rates. In this case, schedule delays should have a marginal
financial impact on planned savings and there is little risk of prematurely paying the
vendor for late deliverables. Therefore, we are not making any recommendations.




                                            4
Management of the Flats Recognition                                                                 DA-AR-07-002(R)
 Improvement Program


FRIP Upgrades Effective in Lab Environment

Before deploying FRIP releases to postal facilities, the Postal Service validated FRIP
software performance and established the payment amount to the vendor by testing the
software in a laboratory environment. Overall, the FRIP software upgrade was effective
in meeting Postal Service performance requirements in the AFSM 100 and UFSM 1000
laboratory testing environment.

The DAR describes minimum target percentage levels for OCR and error rate
improvements for the lab environment. The cumulative results of the software releases
should meet or exceed improvements in the target OCR read or error rate, as described
in the DAR.

Target percentage levels for the AFSM are a 3 percentage point increase in the OCR
acceptance rate and a 1 percentage point reduction in the OCR error rate.
Respectively, the target percentage levels for the UFSM are a 4.5 percentage point
increase and a 1.5 percentage point reduction.

Our review showed that the cumulative results of the software releases for the FRIP
upgrades to the AFSM 100 and UFSM 1000 equipment exceeded the minimum target
percentage levels and, therefore, met DAR performance requirements. Specifically, for
the AFSM 100, the acceptance rate increase was 3.58 and the error rate reduction was
1.05. Likewise, for the UFSM 1000, the acceptance rate increase was 6.61 and the
error rate reduction was 1.6. We note that management’s success can be attributed to
its process for software testing.3

Successfully passing program performance requirements in a laboratory environment
helps the Postal Service determine whether it can achieve system benefits in an
operational setting. Since laboratory results were successful and the software passed
the Postal Service software testing process, we are not making any recommendations.




3
  The OCR acceptance rate increase and error rate reduction are determined by the results of an image injection test.
The image injection test is performed by establishing a test deck of approximately 300,000 images from sites around
the country, especially from sites having recognition problems. The test deck is injected into a simulator to establish
a baseline using the latest revision of software currently used in the field. After the baseline has been established,
the new software is installed on the simulator and the test deck is rerun. When the percentage has been established
using the image injection test, the contractor moves to the alpha, pre-beta, and beta stages of the software testing
process. The images are collected from a broad distribution of Postal Service processing facilities. A variety of mail
sources are used, including First-Class and Standard Mail using incoming and outgoing operation types. Images are
collected randomly from flat sorters at each visited site. The pool of randomly collected images is based on sites’
volume availability.



                                                          5
Management of the Flats Recognition                                                                                   DA-AR-07-002(R)
 Improvement Program


FRIP Upgrades to AFSM 100 Coincide with System Benefit

We found the FRIP upgrade on the AFSM 100 coincided with the primary expected
system benefit. According to the DAR, expected system benefits for FRIP upgrades to
the AFSM 100 require higher acceptance rates to reduce keying workhours at REC
sites where rejected flat mail address images were sent for processing. We reviewed
FYs 2004 and 2005 data from MODS for 13 out of 15 REC sites to determine whether
recognition improvement software reduced workhours. The analyses revealed a decline
in REC workhours, as shown in Chart 1 below.

While the workhour trend declined as expected, we noted that other AFSM 100 system
enhancements were also in place and could have contributed to these declines.4
Nevertheless, because REC workhour declines were more pointed after FRIP
deployment, we concluded the Postal Service achieved expected system benefits and
the program contributed high value to AFSM 100 operations that handles over
80 percent of flat volumes. Therefore, we are not making any recommendations.

                                                 Chart 1. National REC Workhours

                 180,000

                 160,000
                                                                                                                        Before
                 140,000                                                                                                Deployment
                               slope = -1695.8
                 120,000
                                                                                  slope = -5074.7                       After
     Workhours




                 100,000           8.01 % decrease for the                                                              Deployment
                                   period from Oct. 2003 to
                                   Oct. 2004
                  80,000                                                      38.41 % decrease for the
                                                                                                                        Linear (Before
                                                                              period from Nov. 2004 to
                                                                              Sep. 2005                                 Deployment)
                  60,000

                                                                                                                        Linear (After
                  40,000
                                                                                                                        Deployment)
                  20,000
                                                                                  Deployment start date = Nov. 2004
                     -
                           0               5                  10             15               20             25
            Period 1 = Oct. 2003                                   Periods                                  Period 24 = Sep. 2005




4
    Other AFSM 100 enhancements included the Flat Identification Code Sort Program.



                                                                        6
Management of the Flats Recognition                                                                                              DA-AR-07-002(R)
 Improvement Program


System Benefits Not Evident for FRIP Upgrades to UFSM 1000

According to the DAR, the primary system benefits from FRIP upgrades to the UFSM
100 were higher OCR acceptance rates to reduce manual sorting and keying workhours
at processing facilities, since fewer OCR rejects will be sorted manually or keyed.

Our analysis showed system benefits were not evident for these upgrades. We
reviewed UFSM 1000 operations for a 2-year period from November 2002 to
October 2004 before FRIP deployment in November 2004; and a 1-year period during
and after deployment from November 2004 to October 2005. Chart 2 shows that before
FRIP deployment, manual sorting workhours were declining by 7.98 percent.
Conversely, after deployment, manual sorting workhour reductions (.74 percent) leveled
off.

                                    Chart 2. National Flats Manual Sorting Workhours



             800,000


             700,000
                                                                                                                                     Before
             600,000                                                                                                                 Deployment

                                         slope = -4577.1
 Workhours




             500,000                                                                                                                 After
                                                                                               slope = -493.19                       Deployment
                                        7.98 % decrease for the period
             400,000
                                        from Nov. 2002 to Oct. 2004
                                                                                       .74 % decrease for the                        Linear (Before
             300,000                                                                   period from Nov. 2004 to                      Deployment)
                                                                                       Oct. 2005
             200,000                                                                                                                 Linear (After
                                                                                                                                     Deployment)

             100,000
                                                                                         Deployment start date = Nov. 2004
                 -
                       0            5              10       15           20       25          30                 35         40
             Period 1 = Nov. 2002                                  Periods                                            Period 36 = Oct. 2005




In addition, Chart 3 shows that before FRIP deployment, manual keying workhours were
declining by 18.16 percent. However, after deployment, reductions in manual keying
workhours (12.05 percent) were less significant. These manual keying hours are
directly attributable to UFSM 1000 operations at plants.




                                                                              7
Management of the Flats Recognition                                                                                      DA-AR-07-002(R)
 Improvement Program


                                        Chart 3. National Flats Manual Keying Workhours




                   700,000


                   600,000
                                                                                                                             Before
                                                                                                                             Deployment
                   500,000
                                             slope = -8786.5                                                                 After
     Workhours




                   400,000                                                                                                   Deployment
                                    18.16 % decrease for the
                                    period from Nov. 2002 to                                slope = -4027.1                  Linear
                   300,000          Oct. 2004                                                                                (Before
                                                                                   12.05 % decrease for the                  Deployment)
                                                                                   period from Nov. 2004 to                  Linear (After
                   200,000                                                         Oct. 2005                                 Deployment)

                   100,000
                                                                                     Deployment start date = Nov. 2004

                        -
                               0         5           10        15     20      25         30            35          40
                 Period 1 = Nov. 2002                               Periods                                   Period 36 = Oct. 2005




The declines in manual sorting and manual keying workhours shown above may be
partially attributed to operational decisions for UFSM 1000 operations. Some area
offices in coordination with headquarters were reducing the number of UFSM 1000
machines to migrate comparable amounts of flat mail to the AFSM 100.5 Specifically,
our survey responses from area coordinators revealed: (See Appendix A.)

           •         Five of nine area offices currently have initiatives to reduce the number of UFSM
                     1000s at larger postal processing centers to send more mail to the AFSM 100 or
                     to move UFSM 1000s to smaller sites.

           •         UFSM 1000 equipment in larger postal facilities was primarily used to back up
                     AFSM 100 operations.

These initiatives decreased the use of UFSM 1000 equipment in larger postal facilities
and may have influenced workhour trends for manual sorting and manual keying
workhours.

5
    The AFSM 100 is the Postal Service’s most capable and efficient flat mail sorting machine.




                                                                        8
Management of the Flats Recognition                                                                                    DA-AR-07-002(R)
 Improvement Program



To corroborate area office responses, we reviewed historical flat volumes and UFSM
utilization reports. As depicted in Chart 4, responses from sites are in line with historical
volume shifts. Overall, AFSM 100 volumes increased while UFSM 1000 and manual
volume decreased during the same period.


                                                      Chart 4. Flat Volume Trends

              3,000,000,000

                                                 Total volume processed at plants
              2,500,000,000
                                                                                                                            AFSM 100


              2,000,000,000
    Volume




                                                                                                                            UFSM
              1,500,000,000                                                                                                 1000

                                                                    AFSM 100 growth

              1,000,000,000
                                                                                                                            Total
                                                                                                                            Volume
                                                                                                Deployment date             Processed
                                                   UFSM 100 and manual declines                 Nov. 2004
               500,000,000                                                                                                  at Plants

                                                                                                                            Manual
                        -
                              1   3   5   7   9 11 13 15 17 19 21 23 25 27 29 31 33 35 37 39 41 43 45 47 49 51 53 55
             Period 1 = Oct. 2001                                      Periods                              Period 56 = May 2006



Likewise, UFSM 1000 utilization reports showed the number of machines in operation
has decreased from the 340 machines as of November 2004 to 315 machines as of
December 2005.6 Based on already declining workhours for both the manual keying
and manual sorting before the FRIP software release and reduction of machines from
production, we believe that targeted workhour declines are due to local sites’
operational decisions more than the performance of FRIP.

Further, we were unable to obtain from Postal Service sufficient support for FRIP
improvements to UFSM 1000 operations at field sites. Unlike Phase 1, we noted that in
the DAR for FRIP Phase 2, the Postal Service called for metrics to measure
performance in the field environment. During our audit, Postal Service management
indicated that plans are in place to measure performance after the first release of FRIP
Phase 2 software.



6
 The FRIP enhancement was planned for 350 UFSM 1000 machines; however, 10 machines were not upgraded with
OCRs and automatic feeders and, therefore, could not receive recognition improvement.



                                                                          9
Management of the Flats Recognition                                        DA-AR-07-002(R)
 Improvement Program


In summary, we noted no clear evidence of FRIP meeting Phase 1 performance
expectations for the UFSM 1000. In addition, in coordination with headquarters, some
area offices have varied localized UFSM 1000 operational strategies that would
influence expected system benefits. Further, operational performance of FRIP has not
been measured. Therefore, we question $21,367,952 paid to date (Appendix B)
because FRIP Phase 1 improvements on the UFSM 1000 have not demonstrated value
and remain unsupported. The contracted amount for FRIP Phase 2 is valued at
$10.5 million and the expected first release is scheduled for November 2006.

Recommendations

We recommend the Vice President, Engineering, in coordination with the Vice
President, Network Operations:

       1. Reevaluate the need for further Flats Recognition Improvement Program
          software enhancements within the scope of upgraded flat sorting machine
          1000 operational strategies.

We recommend the Vice President, Engineering, in coordination with Vice President,
Supply Management:

       2. Evaluate the Flats Recognition Improvement Program Phase 2 after the first
          deliverable and modify the contract accordingly based on upgraded flat
          sorting machine 1000 need and field performance.

Management’s Comments

Management disagreed with the $21,367,952 in questioned costs but agreed with both
recommendations.

Management stated the audit did not analyze the operation to support the questioned
costs and assumed that because the decrease in manual sorting and keying work hours
flattened, that the entire improvement was questionable. In particular, management
stated the audit did not take into account operational changes over the period
measured, such as moving mail from the UFSM 1000 to the AFSM 100, the re-
deployment of UFSM 1000s to smaller facilities, and the decrease in manual mail
volume at UFSM 1000 only sites. Management indicated that their analysis of manual
mail volumes at sites with UFSM 1000s showed a 12 percent decrease in manual mail
volume.

With regard to the recommendations, management plans to analyze the need for
another UFSM 1000 release and expects a decision in March 2007. Management
stated this analysis will consider the value of future releases, with adjustments to the
cost models as appropriate. Management noted they would enter into discussions with




                                           10
Management of the Flats Recognition                                       DA-AR-07-002(R)
 Improvement Program


the supplier, as appropriate, and planned to complete actions by April 2007.
Management’s comments, in their entirety, are included in Appendix B.

Evaluation of Management’s Comments

Regarding management’s disagreement with the report’s monetary impact, we
acknowledge the operational benefit of moving mail from the UFSM 1000 to the AFSM
100, the re-deployment of UFSM 1000s to smaller facilities, and the decrease in manual
mail volume at UFSM 1000 only sites. However, while the benefits highlighted by
management improve operations, these benefits cannot be solely attributed to FRIP
upgrades. For example, manual mail volume declines at UFSM 1000 only sites could
correlate to general volume declines or the mere introduction of automated equipment
in a non-automated environment. In addition, management did not present specific
information from a field site or machine level to indicate how their assertions would
affect our calculations. Therefore, we continue to believe our reported finding and
associated monetary impact are fair and reasonable. We consider management’s
actions, taken or planned, responsive to the issues identified in this report and to our
recommendations, and do not plan to pursue management’s disagreement through the
formal audit resolution process.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Miguel A.
Castillo, Director, Engineering, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Tony Pajunas
    Susan M. Brownell
    Steven R. Phelps




                                           11
Management of the Flats Recognition                                           DA-AR-07-002(R)
 Improvement Program



              APPENDIX A. SURVEY OF POSTAL SERVICE AREAS

                            UFSM
   Area Office            Initiative                         Description
  Capital Metro              Yes       Capital Metro Area found it more economically
                                       feasible to eliminate the UFSM 1000 (reducing the
                                       number of UFSM machines from 14 initially
                                       deployed to one machine) and manually process
                                       any flat mail that could not be run on the AFSM 100.
                                       This effectively increased manual sorting workhours
                                       and decreased keying workhours.

     Eastern                 Yes       Eastern Area found it more economically feasible to
                                       reduce the number of UFSM 1000s (reducing the
                                       number of UFSM machines from 67 initially
                                       deployed to 38) and to process more mail on the
                                       AFSM 100.

  Northeastern               Yes       Northeastern Area found it more economically
                                       feasible to move UFSM 1000s to smaller sites and
                                       process more mail on the AFSM 100.

      Pacific                Yes       Pacific Area found it more economically feasible to
                                       move UFSM 1000s to smaller sites and process
                                       more mail on the AFSM 100.

     Western                 Yes       Western Area found it more economically feasible to
                                       move UFSM 1000s to smaller sites and process
                                       more mail on the AFSM 100.

  Southeastern               Yes       Southeastern Area found it advantageous to acquire
                                       more UFSM 1000s (they increased the number of
                                       UFSM machines from 43 initially deployed to 51) to
                                       process manual flat mail diverted to local offices.

   Great Lakes               No

  Southwestern               No

New York Metro               No




                                              12
Management of the Flats Recognition                                         DA-AR-07-002(R)
 Improvement Program



                           APPENDIX B. QUESTIONED COSTS

                  Invoice                Paid
               Payment Date            Amount           Description
                 09/23/04             $15,752,713 UFSM 6.03 improvements
                   10/28/04               829,090 UFSM 6.03 soft deliverables
                   12/21/05             4,020,502 6.03 payment
                   02/16/06               765,647 6.0 Clean-up invoice
                    Total             $21,367,952


Note: Questioned costs are costs believed to be unnecessary, unreasonable,
unsupported, or an alleged violation of law, regulation, contract, etc. Questioned costs
may be claimed as a “one-time” benefit or as a cumulative benefit over the entire period
of recovery of the costs, as appropriate, and can include project-related recoveries and
other amounts that can be tracked, based on implementation of OIG recommendations.




                                               13
Management of the Flats Recognition                      DA-AR-07-002(R)
 Improvement Program


                     APPENDIX B. MANAGEMENT’S COMMENTS




                                      14
Management of the Flats Recognition        DA-AR-07-002(R)
 Improvement Program




                                      15
